No.

IN THE
SUPREME COURT OF THE UNITED STATES

AL RUE HOPKINS - PETITIONER
vs.
FLORIDA - RESPONDENT^)
PROOF OF SERVICE
I, A1 Rue Hopkins, do swear or declare that on this date,
*36
20_/?, as required by Supreme Court Rule 29 I have servedthe enclosed
MOTION FOR LEAVE TO PROCEED INFORMA PAUPERIS and PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceeding or that
party’s counsel, and on eveiy other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
The Attorney General of the State of Florida. Ashlev Moodv. PL-01. The Capitol.
Tallahassee. FL. 32399
1
I declare under penalty of peijury that the foregoing is true and correct.
Executed on

30

,20/5
IEGALMA1L

LEGAL

provided to
Wakulla SI

SEP 3 0 2019

9BSS
4UN 1 2 20SW
FOR MAILING.

[pQR MAILIN6ii__.-\

(Signature)

10

